No. 19-439
In The

^ixprtmt (Eaurt of
CTIA-The Wireless Association®,
Petitioner,
V.

The City of Berkeley, California, and Christine Daniel,
City Manager of Berkeley, California, in her official capacity.
Respondents.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 1st day of November 2019, caused three copies of the Brief of
The Retail Litigation Center, Inc., The Chamber of Commerce of the United States of
America, The Business Roundtable, and The National Association of Manufacturers as
Amici Curiae In Support of Petitioner to be served via overnight mail and an electronic
version of the document to be transmitted via the Court’s electronic filing system to:
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8668
tolson@gibsondunn.com

Lawrence Lessig
Harvard Law School
1563 Massachusetts Avenue
Cambridge, MA 02138
(617) 496-8853
lessig@law.harvard.edu

Counsel for CTIA - The Wireless
Association®

Counsel for City of Berkeley, California,
et al.

Adam G. Unikowsky

